<html>
<title> - CLEANING UP OUR NATION'S COLD WAR LEGACY SITES</title>
<body><pre>[Senate Hearing 115-51]
[From the U.S. Government Publishing Office]








                                                         S. Hrg. 115-51

                       CLEANING UP OUR NATION'S 
                         COLD WAR LEGACY SITES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.fdsys.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-243 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
             
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 29, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Semonite, Lieutenant General Todd T., Commanding General and 
  Chief of Engineers, U.S. Army Corps of Engineers...............     5
    Prepared statement...........................................     7
    Response to an additional question from Senator Carper.......    16
    Responses to additional questions from:
        Senator Gillibrand.......................................    16
        Senator Harris...........................................    17
    Response to an additional question from Senator Sullivan.....    19
    Responses to additional questions from Senator Whitehouse....    20
Breen, Barry, Acting Assistant Administrator, Office of Land and 
  Emergency Management, U.S. Environmental Protection Agency.....    23
    Prepared statement...........................................    25
    Responses to additional questions from:
        Senator Carper...........................................    32
        Senator Gillibrand.......................................    34
        Senator Harris...........................................    35
    Response to an additional question from Senator Whitehouse...    37
Frederick, Kevin, Water Quality Administrator, Wyoming Department 
  of Environmental Quality.......................................    45
    Prepared statement...........................................    47
Lukin, Sarah L., Member, Board of Directors, Afognak Native 
  Corporation....................................................    63
    Prepared statement...........................................    65
    Responses to additional questions from Senator Sullivan......    74
Smith, Alexandra K., Nuclear Waste Program Manager, Washington 
  State Department of Ecology....................................    80
    Prepared statement...........................................    83

 
             CLEANING UP OUR NATION'S COLD WAR LEGACY SITES

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Wicker, 
Fischer, Rounds, Ernst, Sullivan, Cardin, Merkley, Gillibrand, 
Booker, Markey, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are here to talk about the environmental legacy of 
the cold war.
    For decades, the military took the steps needed to protect 
our nation's security against the threat of nuclear war with 
the Soviet Union. These steps were necessary and prudent to 
ensure the safety and security of our nation.
    Just speaking from my home State of Wyoming, we are very 
proud of the role that our State has played in deterring the 
threat that the former Soviet Union posed.
    This involved the development and deployment of Atlas 
nuclear missiles during the early days of the cold war. These 
missile sites were on high alert during the Cuban Missile 
Crisis. Our servicemen maintained these sites by using vast 
amounts of trichloroethylene, TCE, to clean rocket fuel lines. 
These soldiers had no idea that decades later that practice 
would create a serious negative environmental legacy.
    Today there is groundwater contamination from the TCE. 
Seven of these Atlas Missile sites are around the city of 
Cheyenne area, and they have varying degrees of groundwater 
contamination. The city of Cheyenne officials approached me 
when they found traces of TCE in the city's water wells, and 
they told me that the Atlas Missile Site Number 4 was the 
reason.
    The Army Corps disputed this claim, and despite their 
denials I forced the Army Corps to do testing that eventually 
proved that the TCE was coming from the Atlas site.
    According to the Wyoming Department of Environmental 
Quality, Atlas Site 4's TCE concentrations in the groundwater 
exceed 240,000 parts per billion, well above a safe drinking 
limit of 5 parts per billion.
    The Atlas site plume of TCE is around 12 miles long and 3 
miles wide. According to the Wyoming Department of 
Environmental Quality, it is ``one of, if not the largest TCE 
plume in all of the country.''
    The Corps has since constructed a water treatment plant 
that ensures that Cheyenne's water is clean and safe, and has 
provided granulated activated carbon systems for private 
landowners who use well water.
    Atlas 4 is just one of these sites that has large plumes of 
this pollutant. Atlas 1 has a TCE plume that is a mile long and 
two-thirds of a mile wide. Atlas 3's plume is a mile long and a 
half-mile wide.
    Over the years, I have heard concerns from my constituents 
about the attitude of regional Corps officials on the ground. 
Each time communities and impacted stakeholders try and engage 
with the Corps on these issues, they have historically been met 
with an unhelpful attitude. Communities want to have the proper 
testing done to know the size and the extent of the plumes, and 
to where the plumes are expanding. They want to know that the 
Corps will live up to their responsibilities and they want 
adequate funding to ensure their safety.
    Now, I hear time and time again from my constituents that 
they feel the Corps just wants to do a quick fix or simply walk 
away from the sites. This needs to change, and I am hoping that 
this new Administration will bring a new attitude.
    I know Wyoming isn't the only State that has cold war 
legacy environmental problems. Many States, especially in the 
West, have quite a few sites associated with the cold war. We 
must honor the legacy of our veterans who fought and won this 
war. The Department of Defense, though, has an obligation to 
leave States like Wyoming whole; to not only provide for our 
nation's safety, but also to restore the environment of the 
communities.
    Senator Carper, I invite you to make an opening statement 
at this point.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. Thanks so much for 
holding our hearing today.
    I want to say a special thanks to our witnesses. General, 
thanks so much for spending the time to visit with us 
yesterday. It was just a real joy. We very much appreciate the 
partnership that we have with the Army Corps of Engineer folks 
mostly in the greater Philadelphia area regional office, but 
also in Baltimore, too.
    Sitting right behind Barry Breen is a fellow who I think is 
going to ride off into the sunset, a colleague of 32 years of 
service to our country at EPA, and his name is Randy Deitz. 
Randy, would you just stand up? Thirty-two years. Nice round of 
applause for Randy Deitz. Thank you for your service.
    [Applause.]
    Senator Carper. Well, today we are going to hear why simply 
sending barely adequate funding to the EPA and the Army Corps 
of Engineers for cleanup of contaminated Department of Defense 
sites just doesn't cut it. Instead, we need to fund these 
agencies to the fullest extent possible.
    Over the next 2 hours we are going to discuss the status of 
cleanup projects at coal or legacy sites under three different 
programs: the Formerly Used Defense Sites, known as FUDS, the 
FUDS program; the Formerly Utilized Sites Remedial Action 
Program (FUSRAP); and the Comprehensive Environmental Response, 
Compensation, and Liability Act, which we call CERCLA or 
Superfund.
    Unlike some of the States represented here, our Chairman 
and others, we don't have the kind of contamination from sites 
that some of our sister States have. Having said that, my 
father and my uncle served in World War II. My wife's dad was 
involved in the Manhattan Project, which is sort of like 
related to a lot of what we are going to be talking about here 
today, at least indirectly. So we have more than just a passing 
interest in this.
    During the past 200 years, a number of activities that 
support our country's military readiness have resulted, as we 
know, in the need for environmental cleanup. These sites, 
located in just about every State, were used for a variety of 
purposes: training and supporting soldiers, airmen, sailors and 
marines, as well as testing new weapons, warfare capabilities, 
and energy technologies. The people who worked at these 
facilities helped to develop the nuclear weapons that ended 
World War II, the missiles that kept the Soviets at bay for all 
those decades, and the rockets that sent men to the moon. They 
often toiled away in secret, on the cutting edge of chemistry, 
nuclear physics, and missile engineering. The legacy they left 
us, though, is one of technological might.
    But it is also a legacy that came at a high environmental 
price. Many of these sites were operated at a time when 
awareness about environmental health and safety paled by 
comparison to what it is today. The Hanford Nuclear Reservation 
site in Washington State was contaminated not just by 
radioactive material, but as we know now, by toxic chemicals. 
The site was contaminated by substances like carbon 
tetrachloride, which caused liver, kidney, and nervous system 
damage; chromium compounds, which caused cancers and other 
serious health impacts; as well as other substances that were 
not well catalogued or properly disposed of. Contamination at 
the Atlas Missile site in Wyoming included, as the Chairman 
knows, levels of cancer causing trichloroethylene that were so 
high that nearby residents needed to be provided with bottled 
water and have special filters installed on their drinking 
water wells.
    Thousands of sites across the country need some form of 
remediation before they are safe to be re-used, and we owe it 
to the patriots who worked at these sites, and to the 
communities of people who now live and work near them, to 
remove the health, environmental and safety risks that these 
sites pose to them.
    I believe in Abraham Lincoln's philosophy. People used to 
say, Mr. Lincoln, what is the role of Government? And he would 
respond the role of Government is to do for the people what 
they cannot do for themselves. This philosophy, I think, is 
especially applicable to the cleanup of these sites since no 
cleanup would have been needed had our Government not needed 
the weapons and the technology that were developed at those 
sites.
    There are thousands of Formerly Utilized Defense Sites and 
former Department of Energy sites whose cleanups the Army Corps 
funds, and there are a number of federally owned facilities 
that have been designated Superfund sites whose cleanups are 
overseen by EPA. The need for funding always exceeds the amount 
of money Congress provides because each cleanup poses unique 
challenges and takes anywhere from several years to several 
decades in some cases to complete. Cleaning up these sites has 
always been a challenge.
    But these sites and the people who live and work near them 
face even greater challenges now because the President's 2018 
skinny budget decimates the EPA with a 31 percent budget cut 
and cuts funding for the Army Corps by a billion dollars, 
almost 20 percent. And EPA's Superfund program I think has been 
cut by 30 percent under this so-called skinny budget, and 
although EPA Administrator Scott Pruitt told our Committee that 
the EPA needs to provide more assistance to the States, the 
President's fiscal year 2018 budget slashes State environmental 
grants by a staggering 45 percent, or $482 million.
    In closing, we look forward to hearing from our witnesses 
today about the impacts the so-called skinny budget will have 
on their abilities, your abilities to carry out your Federal 
responsibilities and what the proposed cuts could mean for 
contaminated sites in our home States. I honestly hope to work 
with our colleagues on both sides of the aisle to take a 
critical look at President Trump's budget proposal and to work 
with the Administration to ensure that these ill advised cuts 
are not ultimately agreed to.
    Thanks again, Mr. Chairman. Let's get on with it. Thank 
you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Before proceeding with the witnesses, I would like to 
invite Senator Sullivan to make a very important introduction.
    Senator Sullivan. Thank you very much, Mr. Chairman. I am 
going to have to leave a little bit early because I need to go 
preside, but I want to take the opportunity and really a 
privilege to introduce one of my constituents who is a witness 
today, a great Alaskan, Sarah Lukin. Sarah has been working to 
address legacy contamination and cleanup of former Federal 
sites throughout Alaska for many years, and I want to express 
my deep appreciation and the Committee's for your willingness 
to travel so far to provide insights and unique points of view 
coming from Alaska.
    Sarah hails from Port Lions, Alaska, which is a remote 
native village on Kodiak Island. Now, for my colleagues who 
have never been to Alaska, I want to say, and I am sorry 
Senator Booker already left, Kodiak Island is about the size of 
New Jersey, and it is a magical place with salmon abundance and 
the biggest brown bears on the planet Earth. So we want to 
encourage you all to come out to that wonderful place and see 
our great State.
    Sarah is a shareholder and member of the Board of Directors 
of Afognak Native Corporation and a shareholder of Koniag 
Incorporation. She is an enrolled tribal member of the Native 
Village of Afognak and Native Village of Port Lions, and she 
has spent years advocating for the cleanup of contaminated 
sites throughout Alaska, but the sites particularly on Alaska 
Native Corporation lands. She earned a bachelor's degree and 
master's degree from the University of Alaska, so, Mr. 
Chairman, we are, I am very excited to have her here, and I 
appreciate you and the Committee inviting her.
    Again, Sarah, thank you for traveling literally thousands 
of miles to attend this hearing. I know we are going to learn a 
lot. Thank you.
    Senator Barrasso. Thank you very much, Senator Sullivan.
    Welcome, Sarah.
    As we turn to the witnesses, let me remind the witnesses 
that your entire written statement will be made part of the 
record. We ask you to try to keep your comments to within 5 
minutes.
    I would like to first welcome back to the Committee the 
Commanding General and Chief of the Army Corps of Engineers, 
Lt. General Todd Semonite. Thank you very much for being with 
us today.

 STATEMENT OF LIEUTENANT GENERAL TODD T. SEMONITE, COMMANDING 
  GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Semonite. Chairman Barrasso, Ranking Member Carper, 
and distinguished members of the Committee, I am Lt. General 
Todd Semonite, Commanding General of the Corps of Engineers and 
the 54th Chief of Engineers. Thank you for the opportunity to 
be here today to discuss the role of the Army Corps of 
Engineers in support of the Department of Defense's commitment 
to protect the environment and restore contaminated sites from 
past military activities.
    Throughout our nation's history the Department of Defense, 
or DOD, used land across the United States to manufacture and 
test new weapons to ensure the nation's military readiness. 
When these lands were no longer needed to support the war 
fighter, the Department cleaned up the properties using the 
best practices available at the time and returned them to 
private or public uses. Today DOD is responsible for the 
environmental restoration of these properties in accordance 
with current applicable laws and regulations.
    The United States Army Corps of Engineers provides critical 
support to the execution of several programs addressing these 
activities, and I will quickly walk through all three.
    First, Formerly Used Defense Sites, or FUDS. The Corps is 
working to clean up munitions dating to World War I and World 
War II eras. FUDS are defined as properties that were formerly 
owned or otherwise possessed by the United States and under the 
jurisdiction of the Secretary of Defense prior to October 1986.
    The Corps holds the responsibility of executing the FUDS 
program under the regulatory framework that identifies 
mechanisms for funding and implementing the cleanup activities. 
The remediation program is generally comprised of several 
categories, including Installation Restoration Program, which 
addresses the cleanup of hazardous substances; the Military 
Munitions Response Program, which addresses unexploded 
ordnance; and finally, the Building Demolition and Debris 
Removal Program that removes unsafe buildings and structures.
    The scope and magnitude of the FUDS program are 
significant. Over 10,000 formal DOD properties have been 
evaluated for the FUDS program since its establishment. The 
Corps has identified 5,357 cleanup sites at 2,716 different 
properties where cleanup actions are required. Approximately 
$7.1 billion have been appropriated to the FUDS program through 
fiscal year 2016. Through this investment, 3,513 sites--or more 
than 65 percent of the initial inventory--are now either closed 
out or in monitoring status.
    Over the last several years, DOD has annually allocated 
between $200 million and $225 million to this program. Clearly, 
there is more work to do, with an estimated cost to complete 
the FUDS program currently projected at $11.8 billion.
    Second program, FUSRAP, another critical program that is 
executed by the Corps. In 1997, using the FUDS program as a 
model, Congress transferred the management and execution of 
FUSRAP from the Department of Energy directly to the Corps. The 
FUSRAP Program specifically addresses the environmental 
remediation of sites where Manhattan Engineer District or the 
Atomic Energy Commission activities were performed during the 
1940s, 1950s, and 1960s.
    Funded out of the Energy and Water appropriation, the Corps 
receives approximately $100 million to $110 million annually to 
execute the FUSRAP Program. Funding is prioritized to projects 
that best support the overall goal of eliminating demonstrable 
threats to public health, safety, or the environment.
    The Corps has completed remediation of 9 sites since the 
program was transferred from the Department of Energy. Twenty-
four sites are currently in the FUSRAP Program, representing a 
cost to complete of approximately $1.55 billion.
    Third, and finally, since 1982 the Corps has partnered with 
the United States Environmental Protection Agency for 
environmental cleanup support of large and complex Superfund 
sites. The EPA relies on the Corps for the environmental 
engineering expertise and access to state of the art 
environmental technology that is used throughout DOD. The Corps 
provides, on average, about $200 million to $300 million per 
year worth of remedial design and remedial construction support 
to EPA Superfund projects across the country.
    In summary, the Department of Defense is committed to 
protect human health and the environment by investigating, and 
if required, cleaning up contamination and munitions hazards 
that may remain on these properties. As my written testimony 
documents in greater detail, the Corps has made significant 
progress in the cleaning up of FUDS and FUSRAP sites. I am 
proud of the work that the Corps has accomplished in delivering 
these programs to the nation, and we remain committed to 
achieving the cleanup program goals established by DOD and the 
Army.
    Mr. Chairman, this concludes my statement. I appreciate the 
opportunity to testify today and look forward to answering any 
questions that you and the Committee may have.
    [The prepared statement of General Semonite follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    Senator Barrasso. Thank you very much for your thoughtful 
testimony. We appreciate you returning to the Committee today. 
Thank you.
    We will now turn to Mr. Barry Breen, who is the Acting 
Assistant Administrator, Office of Land and Emergency 
Management, of the United States Environmental Protection 
Agency.
    Thank you for joining us today. We look forward to your 
testimony.

   STATEMENT OF BARRY BREEN, ACTING ASSISTANT ADMINISTRATOR, 
  OFFICE OF LAND AND EMERGENCY MANAGEMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Breen. Thank you, Mr. Chairman, Ranking Member Carper, 
and members of the Committee. At the outset, let me just thank 
you for recognizing my colleague, Randy Deitz, at the outset of 
the hearing. We will have a reception for him later today 
recognizing his 32 years of Federal service, and I can't wait 
to brag that the Senate Environment and Public Works Committee 
recognized him this morning. Thank you very much.
    At the EPA, focusing on the Superfund program is one of 
Administrator Pruitt's top priorities. Extensive data suggests 
that the Superfund program is a premier example of how EPA can 
accomplish one of its core missions of protecting human health 
and the environment while simultaneously promoting jobs and 
growth.
    A 2012 peer reviewed study by the National Bureau of 
Economic Research shows that Superfund cleanups reduce 
congenital abnormalities by as much as 25 percent to families 
living within 5,000 meters of a site. Birth defects mean 
improved health for the whole next generation.
    Additionally, we have data on 454 Superfund sites in reuse, 
where about 3,900 businesses are generating $29 billion in sale 
and employing more than 108,000 people earning a combined 
income of $7.8 billion.
    And we improve property values, as well. A 2013 study by 
researchers at Duke University and the University of 
Pittsburgh, now peer reviewed, analyzed census tract data and 
found that deletion of sites from the National Priorities List 
after cleanup raises the value of owner occupied housing 3 
miles from the site by between 18 percent and 24 percent. Those 
increased property values means that local governments have a 
more full tax base, and that means that they can provide more 
fire protection, police protection, libraries, and schools. So 
many things that local governments do for us can be done better 
thanks to the Superfund program. Superfund, indeed, can provide 
tremendous improvements to both human health and the economy.
    Since enactment of Superfund, EPA, other Federal agencies, 
and States and tribes have made significant progress. We have 
assessed more than 50,000 sites. The removal program has 
conducted 15,000 removals at more than 9,000 sites, and 1,782 
sites have been proposed on, listed on, or now deleted from the 
Superfund National Priorities List. More than 90 percent of 
those have undergone construction activity, or the activity has 
been completed, or they have now been deleted from the NPL.
    Turning to the Federal facilities program, in particular, 
within the larger Superfund, Congress provided for EPA to use 
the Federal Agency Hazardous Waste Compliance Docket to 
identify Federal facilities that need to be evaluated. EPA 
updates the Docket every 6 months. So far, a little over 2,300 
sites are reflected on the Docket, and of those 2,300 174 have 
been listed on the National Priorities List among Federal 
facilities; 140 are DOD, 21 are Department of Energy, and 13 
are others. In the last 5 years alone, we have completed 
construction, along with our partners, at 8 of these sites; 7 
from the DOD, 1 from the Coast Guard. Completing construction 
means that all of the actual construction of the cleanup is 
accomplished, even though more work is needing to be done.
    Credit for this progress is shared among EPA, States, and 
the Federal agencies themselves. Federal departments and 
agencies pay for the assessment and cleanup of facilities under 
their jurisdiction; EPA provides assistance and oversight. In 
the end, the Administrator of the EPA makes the final selection 
of the cleanup action if the two agencies are unable to agree. 
We have agreements with nearly all sites, and in many cases, 
States are indispensable partners. Tribal governments can also 
be involved and participate in decisionmaking with the other 
Federal agency responsible for the tribal consultation.
    At most Federal facility sites field staff relationships 
are strong. The CERCLA framework has worked effectively for 
more than 25 years. It has a proven track record and provided a 
consistent foundation. Because States are most often parties, 
States are able to participate as well.
    In conclusion, protecting human health and the environment 
through continuing, and perhaps expanding on, the cleanup and 
reuse activities remains among Administrator Pruitt's top 
priorities.
    Thank you again for the invitation to join you today.
    [The prepared statement of Mr. Breen follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Senator Barrasso. Well, thank you very much, Mr. Breen. We 
appreciate your time here today and your testimony, so thank 
you.
    I am next going to turn to Mr. Kevin Frederick, who is the 
Water Quality Administrator for the Wyoming Department of 
Environmental Quality.
    I would like to let folks know that Mr. Frederick 
previously managed the groundwater section for the Water 
Quality Division in Cheyenne. He oversaw the day to day 
permitting, compliance, inspection, and monitoring activities 
involving the Underground Injection Control Program, the 
Groundwater Pollution Control Program, and the Federal 
Facilities Corrective Action Program.
    Prior to joining the Wyoming Department of Environmental 
Quality, he has worked in the energy, minerals, and oil and gas 
industry. In 2007 Mr. Frederick received an EPA Region 8 
Environmental Achievement Award for leadership in groundwater 
management. So this is a man who clearly knows from which he 
speaks. He currently serves on the Board of Directors for the 
Groundwater Protection Council and the Groundwater Research and 
Education foundation; degrees in geology and geophysics from 
the University of Wisconsin at Madison and is a Wyoming 
licensed professional geologist.
    Thank you so much for traveling from Wyoming to Washington 
to testify to be with us today. Please proceed.

  STATEMENT OF KEVIN FREDERICK, WATER QUALITY ADMINISTRATOR, 
          WYOMING DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Frederick. Thank you, Mr. Chairman. Good morning.
    Good morning, Ranking Member Carper and honorable members 
of the Committee. My name is Kevin Frederick. I am the Water 
Quality Administrator for the Wyoming Department of 
Environmental Quality, and I thank the Committee for inviting 
the State of Wyoming to share its perspective on environmental 
cleanup of cold war legacy sites.
    Wyoming is home to 38 Formerly Used Defense Sites. My 
comments today focus on those that have had the most 
significant environmental impact, which are the 7 former Atlas 
Missile sites in southeast Wyoming.
    The Atlas Missile was the first fully operational strategic 
missile developed by the U.S. and was designed for deployment 
of nuclear warheads during the cold war era of the late 1950s 
and early 1960s. Missile sites were used for the housing, 
readiness, and potential launch of nuclear missiles. The Atlas 
Missile sites played a crucial role in protecting the safety 
and security of the American people and ensured the military 
readiness of the United States armed forces. However, some of 
the sites have, and continue to cause serious environmental 
problems.
    The Atlas used liquid rocket fuel propellant for fuel and 
liquid oxygen as the oxidizer. Trichloroethylene, or TCE, a 
known carcinogen, was used to clean the rocket fuel tanks, 
engines, and lines to prevent accidental explosions. Spent TCE 
drained into a series of unlined pits and channels, and into 
the subsurface. The amount of TCE that may have been released 
into the subsurface and into groundwater ranges from hundreds 
to thousands of gallons at each site. It takes as little as two 
teaspoons of TCE to contaminate an Olympic size swimming pool 
full of water, more than 660,000 gallons. A number of factors 
make TCE very difficult, expensive, and time consuming to clean 
up.
    Groundwater within the Ogallala aquifer underlying some 
missile sits has been impacted with TCE at levels far above the 
safe drinking limit of 5 parts per billion. The Ogallala, as 
you know, is one of the most important of the nation's 
aquifers, supplying the agricultural and drinking water needs 
of the bread basket States in the Midwest. All of the missile 
sites are located within 75 miles of Cheyenne, the most densely 
populated area in the State and the home of F.E. Warren Air 
Force Base. Residents rely heavily upon high quality 
groundwater, much from the Ogallala, for municipal drinking 
water supplies.
    Wyoming's missile sites have some of the largest and 
deepest TCE plumes in the U.S. The largest, at Missile Site 4, 
16 miles west of Cheyenne, is roughly 12 miles long and 3 miles 
wide in places. At Site 4, concentrations of TCE in groundwater 
are greater than 240,000 parts per billion, or 48,000 times the 
safe drinking water limit. Some of the city of Cheyenne's 
municipal drinking water supply wells, as well as two water 
wells owned by private landowners, have already been impacted 
by TCE from Atlas 4.
    Each of the seven Atlas Missile sites in Wyoming will 
require significant human and capital resources to complete 
cleanup, and each presents unique challenges and difficulties. 
Overall costs expended to date at the seven missile sites 
exceeds $45 million, and much work remains to be done. As of 
2015 the Department of Defense estimated that the cost to 
complete the investigation and remediation of Formerly Used 
Defense Sites in Wyoming at more than $285 million.
    The Department of Defense is ultimately responsible for 
contamination at the Atlas Missile sites. As the State's lead 
environmental oversight agency, the Wyoming Department of 
Environmental Quality coordinates with the Corps of Engineers 
to investigate, characterize, and remediate contaminated soils 
and groundwater at these sites. Of the seven sites in Wyoming, 
only two are in the remediation phase to treat contaminant 
plumes.
    Collaboration between our respective agencies, together 
with public involvement, allows cleanup of these sites in a way 
that works and that is cost effective. Up front planning and 
communication, including a clear understanding of the roles and 
responsibilities of the agencies involved, and a mutual 
understanding of the Federal and State regulations at work are 
essential to the success of this endeavor. Adhering to these 
basic tenets makes the process work best for all parties 
involved.
    Further details on each of the Wyoming missile sites, as 
well as observations and recommendations that may help improve 
the overall cleanup process at these sits, are provided in the 
appendix to my written testimony.
    Mr. Chairman, Mr. Ranking Member, and members of the 
Committee, I thank you for your time and remain available to 
answer any questions.
    [The prepared statement of Mr. Frederick follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Senator Barrasso. Well, thanks so much for your thoughtful 
testimony. We are grateful that you have come to be with us 
today.
    Also traveling quite a distance, our next witness has 
already been introduced by Senator Sullivan, Sarah Lukin, the 
Board of Director of the Native Corporation, Alaska Native 
Village Corporation Association.
    Thanks for being with us.

   STATEMENT OF SARAH L. LUKIN, MEMBER, BOARD OF DIRECTORS, 
                   AFOGNAK NATIVE CORPORATION

    Ms. Lukin. Cama'i, hello, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of this Committee. My name is 
Sarah Lukin. Quyanaa, thank you, for allowing me the 
opportunity to discuss federally contaminated sites on land 
conveyed to Alaska Native Corporations. I am here before your 
Committee as a board member of Afognak Native Corporation and a 
member of the Alaska Native Village Corporation Association.
    World War II, Japan's invasion of the Aleutians, and the 
cold war had profound impacts in Alaska. If Alaska's expansive 
forests and tundra could talk, what stories would they tell? We 
would hear of 55 gallon drums full of toxic materials dumped in 
lakes, of unexploded ordnances on the tundra, a stream with 
lead batteries in it, cold war legacies often hidden from view, 
but slowly decaying, leaching into the ground and water.
    Forty-five years ago, Congress settled aboriginal land 
claims with Alaska native people through the Alaska Native 
Claim Settlement Act, or ANCSA. Under ANCSA, the Federal 
Government created Alaska Native Corporations and agreed to 
convey to our Alaska native people 44 million acres of land.
    During the 1990s the Alaska native community raised 
significant concerns that the Federal Government was conveying 
contaminated lands to Alaska Native Corporations to meet our 
end of the bargain. In response, a 1998 Department of Interior 
report explained Alaska Native Corporations had been conveyed 
approximately 650 contaminated sites under ANCSA with various 
types of hazardous waste and toxic materials that posed 
significant health risk to humans, animals, and the 
environment, including arsenic and PCBs, among others. One 
hundred eighty-nine of the contaminated sites identified were 
Formerly Used Defense Sites, or FUDS, and many included 
petroleum contamination.
    Sadly, under CERCLA, Alaska Native Corporations may be held 
responsible for the cleanup of this preexisting contamination. 
Let me be clear. Under ANCSA, Alaska Native people gave up 88 
percent of our traditional lands, and in exchange, we received, 
in part, contaminated sites that we may be legally liable for.
    An updated report to Congress last year confirmed that 
there are still 537 sites that require remediation on ANCSA 
lands. Of the sites identified, the majority are Department of 
Defense; 120 of them are FUDS.
    Nearly 100 additional contaminated sites are not in a 
cleanup program currently. Almost all of these sites are within 
2 miles of Alaska native villages. These are places where our 
native people engage in subsistence activities, obtain our 
drinking water, and let our children play.
    The Natives of Kodiak have spent the last 25 years 
advocating for the cleanup of an old Army site on their ANCSA 
land. The Army Corps of Engineers attempted to remediate the 
site through FUDS and the Native American Lands Environmental 
Mitigation Program, or NALEMP. The Natives of Kodiak refuses to 
accept ``institutional controls'' and ``long-term monitoring'' 
of the site as a solution, and instead, continues to seek clean 
drinking water and land. This painfully slow cleanup has 
stalled all economic development for the Natives of Kodiak for 
the last 2 and a half decades.
    The Afognak Lake and River area has been used by my people 
for over 7,000 years for subsistence hunting and fishing. In 
2003 my tribe and Alaska Native Corporation partnered to clean 
up an old Navy base located on the shores of our lake and 
river. In partnership with FUDS and NALEMP, we spent 6 years 
cleaning up the site. In addition to removing toxic materials, 
the project built the business capacity of our organizations 
and offered our local native people training and much needed 
jobs.
    With 537 sites still needing cleanup, we need fewer 
failures like the Natives of Kodiak experience and more 
successes like Afognak's.
    Congress can help move this critical issue forward. I urge 
you to consider legislation to prioritize the cleanup of ANCSA 
land. Currently, there is no such priority under FUDS to 
protect Alaska Native Corporations from legal liability under 
CERCLA and to address petroleum cleanup, which is currently not 
covered.
    Quyanaasinaq, thank you very much, and I would be happy to 
answer any questions that you may have.
    [The prepared statement of Ms. Lukin follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Barrasso. Well, thank you very much, Ms. Lukin. We 
appreciate you being here and appreciate your thoughtful 
testimony.
    Next I would like to turn to Alexandra Smith, who is the 
Nuclear Waste Program Manager of the Washington State 
Department of Ecology.
    Thank you very much for joining us today.

STATEMENT OF ALEXANDRA K. SMITH, NUCLEAR WASTE PROGRAM MANAGER, 
             WASHINGTON STATE DEPARTMENT OF ECOLOGY

    Ms. Smith. Thank you. Chairman Barrasso, Ranking Member 
Carper, honorable members of the Committee staff, thank you for 
inviting me here today to speak on behalf of Washington State 
to these important topics. My name is Alexandra Smith, and I am 
the Nuclear Waste Program Manager for the Washington State 
Department of Ecology. Our program fulfills the State's 
environmental regulatory role at the Hanford Nuclear 
Reservation and also the State's role under what is known as 
the Tri-Party Agreement, which is a Federal facility compliance 
order that sets out the respective roles of the Department of 
Energy, the Environmental Protection Agency, and the State in 
relation to the cleanup at Hanford.
    I am also here today representing the other Washington 
State departments and programs that play a part in regulating 
and cleaning up former defense facilities, Federal facilities, 
and cold war legacy sites in our State.
    Washington State has historically played an important role 
in our nation's defense. However, Washington's contributions to 
national defense and security have come at a cost to our 
resources and citizens. To this day, contamination at these 
Federal facilities has significantly impacted our land and 
groundwater, posing very real and ongoing threats to human 
health and Washington's environment.
    The Hanford Nuclear Reservation is the most significant 
example of this, as the more than 40 years of nuclear weapons 
production at this site left it the largest and most complex 
environmental cleanup in the country. In addition to Hanford, 
Washington is home to approximately 500 Formerly Used Defense 
Sites in need of remediation, as well as active military 
installations that are on the Superfund National Priorities 
List in need of remediation.
    The State of Washington and Federal agencies like the 
Environmental Protection Agency, Department of Defense, 
Department of Energy, and the Corps of Engineers play vital 
roles in cleaning up this environmental legacy of the cold war. 
The Federal agencies have provided essential resources for 
moving these cleanups forward either through direct spending on 
cleanups or through pass through funds to the State.
    However, proposals in the President's budget blueprint that 
call for significant cuts to these agencies' budgets could slow 
or stop cleanup progress altogether in communities that have 
been waiting decades for the risks associated with these sites 
to be abated, and could also impair the State's ability to 
fulfill its role at these sites. If Federal agencies are unable 
to fulfill their environmental obligations to our State, 
Washington does not have the resources to fill the void.
    As an example of the challenges, Hanford's 40 years of 
weapons production during the cold war left more than 130 
million cubic yards of contaminated soil and debris, 1,000 
contaminated buildings, and more than 72 square miles of 
groundwater contamination under the site that flows toward the 
Columbia River, which is a source of drinking water for local 
communities as well as irrigation water for local agriculture.
    In addition, more than 56 million gallons of high level 
nuclear wastes are to this day stored in 177 aging tanks 
onsite. More than 67 of those tanks have leaked, releasing 
upwards of 1 million gallons of high level radioactive and 
chemical waste to the ground. Overall, Hanford has two-thirds 
of the nation's high level nuclear waste by volume, is the most 
contaminated nuclear site in the country, and its 586 square 
mile site is the nation's largest environmental cleanup. Recent 
estimates have put total cleanup costs over the life cycle of 
the cleanup to over $120 billion, and the cleanup effort is 
expected to run through 2070 under current estimates.
    Cleanup activities at Hanford are the joint responsibility 
of EPA and the State. The State implements the Resource 
Conservation and Recovery Act at the site with oversight by 
EPA, and EPA is the lead regulatory authority under CERCLA. EPA 
has final authority over remedial decisions made under CERCLA 
at Hanford's four National Priorities List sites, while DOE is 
the owner and operator at the site responsible for implementing 
the cleanup.
    Since 1989 cleanup progress at Hanford has been directly 
correlated to the availability of funds for cleanup. Washington 
State is very concerned that proposed Federal budget cuts could 
negatively impact the already slow progress on Hanford cleanup.
    I did want to note that when it comes to the Department of 
Energy's budget, historically the Department of Energy's 
environmental management budget has fallen short of its 
obligations nationwide to fulfill its cleanup obligations, and 
under the current resolution funding, it virtually guarantees 
DOE is unable to meet its legal obligations at the site. Any 
reduction will slow cleanup progress further.
    The longer it takes for cleanup to happen at these sites, 
the more money it takes for DOE to simply meet its obligation 
to maintain the sites' nuclear safety, which means maintaining 
its aging infrastructure in a safe and secure condition, and 
that means less money goes to clean up. Currently, 40 percent 
of DOE's Hanford budget goes to simply keeping the site safe, 
with the remaining 60 percent going to clean up. Any reduction 
in DOE's Hanford budget comes out of the funds available for 
cleanup, not the funds necessary to keep the site safe.
    If EPA's budget for Hanford work is reduced, there is 
similar risk that progress on the remaining CERCLA cleanup at 
the site will slow or stop, because EPA has the exclusive 
authority to make remedial decisions under CERCLA. If EPA does 
not have the resources to dedicate to the cleanup, there is 
little the State can do to fill the void. A slowing of CERCLA 
cleanups at Hanford could also slow progress on cleaning sites 
up under RCRA because the State and EPA are trying to combine 
the RCRA and CERCLA cleanups, allowing the CERCLA cleanups to 
lead the effort. Delays in the CERCLA cleanups necessarily 
means delay in the RCRA cleanups.
    EPA also provides oversight and technical assistance for 
the State under RCRA. If EPA loses resources in the RCRA 
program, the State will lose that technical expertise as well 
as a backstop if the State is ever unable to fulfill its RCRA 
role at the site.
    I apologize, I am going over time here.
    In addition, EPA has historically taken on the large and 
technically complex enforcement actions at the site, and the 
State does not have the resources to fill that void if EPA is 
unable to do so.
    In sum, on Hanford, it has historically stood out for the 
slow pace of cleanup. However, a 30 percent or larger cut to 
EPA's budget could mean this already progress toward cleanup by 
2070 would go even more slowly, and the local communities would 
continue to face risks from the site well beyond our and even 
our children's lifetime.
    I also wanted to touch briefly on the other cold war legacy 
sites in Washington. There are more than 500 Formerly Used 
Defense Sites there. EPA plays a role in oversight on those and 
the Corps of Engineers plays a role on the actual cleanup. 
Washington's concern that reduction in those funds will also 
lead to a de-prioritization of the cleanup of those fund sites.
    Finally, the State is concerned that its own work could be 
impacted by the reductions in the EPA funding. Federal funding 
accounts for approximately 34 percent of Washington's 
Department of Ecology budget, with 80 percent of that funding 
coming from EPA. Superfund grants, State cooperative 
agreements, and EPA funded cleanups are potentially impacted by 
proposed cuts, and the State's categorical grants that support 
air and water quality work would be significantly impacted.
    In conclusion, Washington has long played host to vital 
national defense facilities, doing our part to ensure the 
country's safety and security, yet our citizens and resources 
have been left with a harmful environmental legacy of those 
sites. The pace of their cleanups has rarely been quick, but to 
date it has been steady. Without adequate funding from the 
Federal Government to fulfill this cleanup obligation, 
Washington fears progress at these facilities will slow or 
stop, forcing Washington's citizens to continue to live with 
the environmental risks associates with these national defense 
sites.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Ms. Smith follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Barrasso. Well, thank you very much for your 
testimony.
    We will turn to Senator Sullivan with questions.
    Senator Sullivan. Thank you, Mr. Chairman, for allowing me 
to ask a few questions before I go to preside. I do want to 
associate my initial remarks with what Senator Carper mentioned 
at the outset of his remarks.
    As this Committee knows, I was a strong supporter of 
Administrator Pruitt, and I am glad to see him in the position 
that he is in. He did make commitments to many of us during the 
confirmation process on certain issues that weren't reflected 
in the President's budget, and I think that is a bit of an 
issue from my perspective. If you make commitments in a private 
setting, meetings, or in a public hearing, it is an important 
deal when you are trying to get confirmed, and we expect those 
commitments to be kept. So I think that is a message I want to 
make sure the EPA hears loud and clearly.
    Ms. Lukin, thank you very much for your testimony. I want 
to raise a couple issues that relate to your testimony and what 
you talked about. The one seems to be a very difficult kind of 
catch-22, where Alaska Native Corporations receive land from 
the Federal Government. It is contaminated, and then all of a 
sudden the Native Corporations who are trying to develop this 
land--it is very difficult to develop any land economically 
when it is contaminated--not only don't have the opportunity to 
develop the land for economic opportunity, but all of a sudden 
are looking like they are on the hook for CERCLA liability. So 
it is kind of a double whammy.
    The land was supposed to be given--the part of the deal 
ANCSA was to enable Alaska natives to develop their land 
economically. You can't do that because it is contaminated. And 
B, now the Feds are telling you that you are liable. So it is 
almost like a lose-lose, as opposed to a win-win.
    Can you talk about that a little bit more and how we in the 
Congress could fix that, which is clearly, from my perspective, 
a double unfair situation to you and the Alaska native people 
you are representing?
    Ms. Lukin. Senator, thank you very much for the question. 
So regarding CERCLA, there is a section called Section 107(a), 
and it basically says that we are on the hook to clean up any 
preexisting sites. And what we found, because ANCs are 
currently, under Federal law, legally liable to clean up this 
federally caused preexisting contamination, that some ANCs are 
unwilling to come forward and say we have a contaminated site 
on our lands, and it needs to be cleaned up. Instead, they are 
living with that contamination and not notifying the proper 
authorities, because basically they are afraid they are going 
to have to pay for this cleanup, and they can't afford to do 
so.
    EPA does have a policy that says it won't pursue cleanup 
under Section 107(a). However, that policy does not create any 
legal rights for Alaska Native Corporations. And the EPA did 
reserve the right to depart from that policy on a case by case 
basis, so although the policy exists, it is not exclusively 
helpful.
    Senator Sullivan. So you can't rely on it.
    Ms. Lukin. We cannot rely on that policy currently. So it 
is really my recommendation and the recommendation of Alaska 
Native Corporations that Congress provide Alaska Native 
Corporations protection under the law from Section 107(a) of 
CERCLA.
    Senator Sullivan. Well, I think that would be something 
that would be very fair.
    And Mr. Chairman, I would like to work with you and Senator 
Carper and other members of the Committee to try and work on 
something like that, where, again, it seems to me the point of 
ANCSA was to help promote the economic opportunities for Alaska 
native people, and this kind of loophole, I guess, undermines 
that.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Carper.
    Senator Carper. This is gripping testimony. It is hard not 
to be affected by it. Not infrequently here in this Committee 
we talk about the Golden Rule; how would we want to be treated 
if we were in somebody else's shoes who is my neighbor. And 
boy, that is ringing in my ears as I listen to your testimony 
today.
    Ms. Smith, there are, I believe, 500 Formerly Used Defense 
Sites and I think 51 or so Superfund sites in Washington State 
alone. Hanford Nuclear Reservation alone contains such a toxic 
stew of contamination that four separate Superfund sites were 
designated there, I think, if I am not incorrect.
    The President's budget includes a $1 billion cut to the 
Army Corps' budget. That is over 15 percent. The President's 
budget also proposes a 30 percent cut of $330 million to the 
Superfund account.
    I am looking for a yes or no answer here. Do you agree that 
there will be fewer and slower cleanups of toxic sites like 
Hanford if Congress goes along with these proposed Draconian 
cuts?
    Ms. Smith. Yes, Senator.
    Senator Carper. Thank you.
    I have a question, if I could, for Ms. Lukin and Mr. 
Frederick. Do either of you disagree with Ms. Smith's response? 
Just keep it simple. Do you agree or disagree with her 
response?
    Mr. Frederick. Mr. Chairman, with respect to the missile 
site cleanups funded under the Corps of Engineers, no, we 
wouldn't feel any effect.
    Senator Carper. Please.
    Ms. Lukin. No.
    Senator Carper. OK, thank you.
    If I could, General Semonite and Mr. Breen, I would like to 
ask you to provide a list for the record indicating which site 
cleanups in which States would be slowed or cut if Congress 
agrees to the President's fiscal year 2018 budget proposal. If 
you would do that for us, we would appreciate it.
    Back to Ms. Smith. In his confirmation hearing, and Senator 
Sullivan alluded to this, Mr. Pruitt said, ``State regulators 
possess the resources and expertise to enforce our 
environmental laws'' and said that he thinks that ``EPA needs 
to provide more assistance to States.'' Surprisingly, though, 
the President's fiscal 2018 budget proposes to cut State grants 
by a remarkable--as I said earlier--45 percent, or some $482 
million.
    And I just ask of you, Ms. Smith, do you agree that the 
State of Washington will be severely limited and may be unable 
to do the Superfund work it is doing if Congress agrees to 
these cuts?
    Ms. Smith. Yes, Senator.
    Senator Carper. Thank you.
    You all are terrific to be here, and I just applaud the 
work that you do with your lives.
    Let me start with you, General. Thinking about what you 
said and the other witnesses have said, give us one good 
takeaway where you think you agree. Like say we all agree on 
this. Just give me one really good takeaway where you think 
there is broad consensus.
    General Semonite. Sir, I will go first. I think we all 
agree, or I certainly hear a consensus of the commitment of the 
Federal Government to continue to try to clean these up. I 
think it is going to be primarily limited by resources, not by 
a will of not wanting to do it. And the challenge is going to 
be where are those priorities, and where is the risk if we 
don't. But I think all of us are committed to continue to be 
able to put America's dollars back in to fix some of these 
things that just were not done properly in the earlier years.
    Senator Carper. Thank you, sir.
    Mr. Breen, consensus. Just very briefly. Major point.
    Mr. Breen. I suspect there is broad agreement that these 
are programs, whether they are developed by States or tribes or 
the Federal Government, that can be both good for the 
environment and good for health and good for jobs and good for 
growth. It is a broad improvement in our well-being in many 
years.
    Senator Carper. Good. Thank you.
    Mr. Frederick.
    Mr. Frederick. Mr. Chairman, I would agree with the 
previous two speakers. It is absolutely something that we 
believe the Corps of Engineers, with respect to the Formerly 
Used Defense Sites, have committed to under the Department of 
Defense. We believe it holds essentially Government to the same 
level of accountability for cleaning up the environment that 
the rest of us are held to, including industry and the private 
sector.
    Senator Carper. All right, thanks.
    My time has expired.
    Ms. Lukin, just very briefly. Very briefly consensus, big 
point, major point.
    Ms. Lukin. Thank you for the question. I am absolutely 
thrilled to see the interest and desire to work with our 
organizations to clean up our lands. I would love to see the 
Army Corps of Engineers, the EPA, the BLM, and other Federal 
agencies better coordinate in cleanup efforts, and I would be 
happy to talk with them further about that. Thank you.
    Senator Carper. Thank you so much.
    Ms. Smith.
    Ms. Smith. I think everybody agrees on the importance of 
these cleanups to the local communities not just in terms of 
environmental protection, but also to putting the contaminated 
lands back to productive use, and their economic importance as 
well.
    Senator Carper. Thank you so much.
    Thank you all.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Lt. General Semonite, I have heard concerns over the Black 
Hills Ordnance Depot. That is a site that is near Edgemont, 
South Dakota. In 2016 the Army Corps installed a barbed wire 
fence to protect the public from explosive hazards; however, 
many residents feel that these fences are not adequate to 
protect the public from explosives and toxic contamination that 
may be located on the site. Can you give me an update on the 
safety measures the Corps may be taking at this site, any 
public outreach that you have done or that you plan to do to 
make certain that the public feels secure with the safety 
measures taken by the Corps?
    I recognize that you have a number of sites out there. If 
you are not prepared to provide that to me at this time, I 
would take that for the record as well, sir.
    General Semonite. Thank you, Senator. South Dakota does 
have 58 different FUDS projects out there. We have about 25 
remaining, so that means that the bill to be able to really 
remediate these in the right way is about a $45 million bill.
    Specifically on that one, we have had some protective 
measures put in place. We are concerned that if there are sites 
that we can't get to in time, we have to be able to make sure 
that not only do we have some type of a physical barrier, but 
also this is a training piece as well. So we invest a 
significant amount of money on to be able to make sure that we 
are doing community outreach and to let people know safety. The 
last thing we want to have is somebody to get hurt in one of 
these sites.
    I don't know exactly whether that fence is to the standard 
that meets certainly the intent of South Dakota, but if not, I 
will certainly find out and get back to you and let you know 
where we are at on that.
    Senator Rounds. Thank you, sir.
    Lt. General Semonite and Mr. Breen, portions of Ellsworth 
Air Force Base, in Meade and Pennington Counties in South 
Dakota, are listed on the EPA's National Priorities List due to 
petroleum products and waste solvent contamination. Can you 
give me an update on the cleanup efforts at Ellsworth? And if 
you are not familiar with them, I would also take that report 
for the record as well.
    Mr. Breen. Thank you, Senator. I can start, and I will turn 
to the Lieutenant General to see if he would like to add.
    The Ellsworth Air Force Base is indeed on the National 
Priorities List. Actually, the Air Force completed construction 
in 1999. As a Federal facility, the actual carrying out and 
paying for the work would be done by the Air Force, not by the 
EPA.
    After construction was completed in 1999, we moved to 
partial de-listings at the site; that is, some parts are 
actually able to be taken off of the Superfund list, and we did 
partial de-listings in 2006 and 2012. What is the only 
remaining portion requiring focus is the groundwater, still 
very important, and the issue there is the TCE, 
trichloroethylene, and its breakdown products, together with 
one area mixed with petroleum. In addition, studies for 
perfluorinated compounds, a comparatively new, emerging 
contaminant, are underway as well as one for dioxane--I am 
doing chemistry now, sir--and munitions.
    But the point is that this continuing work is in progress 
or awaiting funding for the Air Force's taking the next steps.
    Senator Rounds. OK.
    General Semonite.
    General Semonite. Sir, I have nothing to add to that.
    Senator Rounds. Thank you.
    Mr. Breen, I also want to take just a step back from the 
specific sites and ask a more general question regarding the 
Superfund cleanup program itself.
    I know that there is reprioritization going on at the EPA. 
We recognize that. We also know that in the President's budget 
there was a reduced amount which was being proposed to be 
funded at the EPA level. Can you give me and this Committee 
some insight as to the planning or the discussions that went 
into place and the priorities which the Department or the EPA 
is planning with regard to where you are putting your 
priorities now versus what it might have been under the 
previous Administration's budget proposal?
    Mr. Breen. Thank you. So, first, in the site by site 
prioritization we have a longstanding practice which is in 
place now for probably 20 years or more of funding those sites 
that have an imminent endangerment; making sure those are taken 
care of. Then we fund sites that are ongoing, where 
construction has been going on year to year. And then we take 
up new sites with what funding we have after that. And it is 
often the case that we can't take up as many new sites as we 
would like, and that has been the case for a very long time.
    In terms of the broader picture, we are looking for 
efficiencies; we are looking for ways we can go deeper into 
using accounts that the Treasury Department has allowed us to 
set up. These are interest bearing savings accounts with the 
U.S. Treasury where we have put money that defendants have 
given us, and we have deposited there, and we can draw on. 
Looking for ways to draw on that. And because Congress has made 
Superfund no year money, we don't have to spend every year what 
is given to us in any particular year, so we can look to prior 
years' funding in order to fund needs in future needs. So we 
will be looking for efficiencies administratively, efficiencies 
in the way we move funding among accounts and more in order to 
get as much progress for the public as we can.
    Senator Rounds. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Booker.
    Senator Booker. Mr. Chairman, I really appreciate this. 
This hearing I am deeply grateful for, just because of the 
reality in my State we have 91 FUDS sites, 7 FUSRAP sites. 
Nearly half are still awaiting cleanup. Every State has 
Superfund sites. I have 114 in New Jersey. And I have to say 
this is something that was astonishing, because I didn't know 
it before I came to become a Senator, that we as a nation had a 
bipartisan commitment. Ronald Reagan reauthorized Superfund 
monies to clean up these messes. It was voted on by members in 
the Senate here. But that has now lapsed. We don't even have 
the money. Superfund sites in America are going up. And what 
makes these sort of more astonishing to me, Mr. Chairman, is 
that it is the mess that we made. The fundamental thing, all I 
need to know in life I learned in kindergarten: clean up the 
mess you made.
    But this is what is even more stunning to me about the 
situation, is that we now have longitudinal evidence, data to 
know what happens to human beings that live adjacent to these 
sites. So just to look at the studies, right now, for Superfund 
sites, 11 million Americans and 3 million to 4 million kids 
live within 1 mile of a Superfund site. And I have families 
that are living close to these FUDS sites as well. And now we 
know that babies of mothers living within 1 mile of an 
unremediated Superfund site have a 20 percent greater rate, 
greater incident of being born with birth defects. Studies have 
shown they have substantially higher rates of autism as well.
    So here we have sites that we made that have deeply 
hazardous, harmful substances to them, and we are missing an 
opportunity to do right by the children of America, pregnant 
women, elderly. And more than that, not only that moral 
urgency, but we could actually create jobs as well. As a former 
mayor, I know when you remediate these sites, then they 
actually create economic opportunity for communities. It is 
like a win-win-win for the economy and for the health of our 
families.
    So it is beyond me that we don't have more urgency as a 
nation to clean up this mess that in many cases we ourselves 
made and now are inflicting on families and children. The 
autism rates in New Jersey, the children being born with 
defects, talk to those parents, and if any of us in Congress 
had families and had children living within a mile of a 
Superfund site or one of these sites, and unfortunately, I live 
within a mile or so of a Superfund site.
    So this is a funding issue, and I would like to know, 
Lieutenant General, would funding for FUDS and FUSRAP 
immediately expedite the cleanup process? Yes or no.
    General Semonite. Sir, I think that we certainly have 
capacity to do more. So additional funding would in fact have 
an impact on cleaning these up faster.
    Senator Booker. So this is a matter of the U.S. Government, 
which made this mess, and we are not investing in cleaning up 
the mess we made, and there are people today who are pregnant, 
people today that are expecting kids living close to these 
sites facing this danger, and today there are people that 
desperately need work that could be going to work doing this.
    You know, a GAO study found appropriations to Superfund 
sites declined by nearly 50 percent from 1999 to 2013, meaning 
fewer cleanups.
    So, Mr. Breen, it is my understanding that the EPA has 
shovel ready sites that could be cleaned up if sufficient funds 
were available. So, again, in your opinion, is this a funding 
problem?
    Mr. Breen. Thank you, sir. And I will just point out with 
some pride that that statistic that you pointed out about the 
birth defects is actually in a review studied by Professor 
Janet Currie of Princeton University in your home State. So 
there is some connection to New Jersey.
    Senator Booker. I will never look askance at Jersey pride 
statistics.
    [Laughter.]
    Senator Booker. Thank you very much, sir. But it is a 
funding issue, yes?
    Mr. Breen. Well, what we know is a number of things. One is 
that it has been true for some time that EPA will often get to 
the end of a fiscal year and have sites ready for funding that 
there is not funding to do those sites. That has been true for 
many years more often than not.
    What we also know is that there is room to look for 
efficiencies and that Superfund is enforcement first. And we 
know that Superfund money is no-year money. So there are lot of 
ways we can look for ways to get more done, and we will be 
doing exactly that.
    Senator Booker. OK, so my time has expired.
    I just want to say for all of this talk in the executive 
branch and the legislative branch about investing in homeland 
security, this is about protecting our homeland from toxic 
threats to families and children.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Inhofe.
    Senator Inhofe. You know, Mr. Chairman, I am reminded and 
have quoted Ronald Reagan before when he said there is nothing 
closer to life eternal on the face of this earth than a 
Government agency once formed. And he went on to talk about 
things that have to be done and can be done, and every time 
there is an effort to try to have efficiencies in Government, 
that that is they will pick out the one thing that is of 
greater concern to everyone and use that.
    I want to say to you, Mr. Breen, I appreciate two things 
that you said in your opening statements, as well as responding 
to questions. I really appreciate it. First of all you are 
saying yes, we are, right now, looking for efficiencies, and 
for efficiencies knowing that there are, in any bureaucracy, 
areas where we can find efficiencies, we can find waste and 
abuse and all of that. I applaud you for it.
    And the second thing is when Scott Pruitt was up for his 
nomination, he made the comment over and over again, he did so 
before this Committee and elsewhere, about the significance of 
the cleanups and his effort to really concentrate and get 
things done. I have to admit that I have only been over there 
once since he has been there, and that was yesterday. He took 
me into the long table room. I suspect there is a seat for you 
at that long table when he was talking about the priorities 
that he had and how quickly he is really getting into talking 
to you guys who know more about it than we do up here in 
establishing priorities.
    So I appreciate the fact that you have made those comments.
    I think also, I wrote this down when you said it, General, 
it sounds like you are doing a pretty good job. Correct me if I 
am wrong, if I got this down wrong, but 5,357 cleanup sites, 
and now 3,513 are either closed out or in the monitoring 
status. Is that accurate?
    General Semonite. Yes, sir. And I think the other thing 
that goes back to the efficiency piece, we continue to try to 
find ways of continuing to get more value out of those funds 
that do come in; also to be postured for year-end money. And 
there are several times when we have contracts that we can put 
money on so that if in fact it is unobligated somewhere else, 
we are able to go back in and be able to make sure we are 
optimizing the use of that money through the contract vehicle 
we have.
    Senator Inhofe. Yes. Yes. And there are some other things, 
before I got distracted on that, that I was going to mention, 
but I do want to mention one, and that is Tar Creek. Nod if you 
have ever heard of Tar Creek.
    One. All right.
    Tar Creek was the No. 1 site in America at that time. 
Historically, it was a big mining area in northeastern 
Oklahoma, actually extended up into Kansas and over into 
Missouri. But it was a huge thing. And the mining that took 
place there took place back in the 1940s, and we didn't have 
any really good, accurate records as to what was underneath the 
ground. Later on we found there was an elementary school that 
any day could have caved in with all those kids there, and we 
were able to get into there. Well, that was a major thing.
    I have to say that even though this was not a site, a 
former site that you would be dealing with, General, you still 
did. We had a lot of activity from the Corps and from all the 
agencies that worked together. It kind of reminds me a little 
bit of the disaster that we faced in Oklahoma just last week 
when we had this terrible fire, the worst in history, and 
everybody did come together and did a good job. That is exactly 
what happened to Tar Creek.
    So I want to say to all of the players it really did work, 
and it worked successfully. And if we hadn't gotten on it, you 
don't know how many of those little kids at that elementary 
school might have sustained really serious problems.
    So I think it is sometimes important to talk about the good 
job that is being done. I appreciate it, and I do think in this 
new Administration you are going to have a new concentration, 
less concentration on trying to build sciences and more 
concentration on getting things done. And I thank you for your 
testimony.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, I first want to thank you for 
holding this hearing. I think it is an extremely important 
subject. I was listening to the testimony from my office 
because I had an appointment, and I was here as we started the 
hearing. I wanted to thank all of our witnesses for their 
commitment to our country and to our environment.
    I just really want to bring attention to two sites we have 
in Maryland. One is a site that qualifies for Formerly Utilized 
Sites Remediation Action Program, which is located in South 
Baltimore, 260-acre site that was formerly used by W. R. Grace. 
And we are working on that site, and I appreciate the work that 
is being done.
    The other is a more recent identified problem and does not 
come under that program, and that is the site of Bainbridge, 
which I think received a great deal of attention. This is an 
issue I just want to bring to the Committee's attention because 
it is extremely frustrating, Mr. Chairman. I know the work that 
you have done to try to have the right relationship between 
Government and the private sector.
    Here is a situation in which the Navy used a 1,186-acre 
site in Cecil County, Maryland, from 1942 to 1976. The property 
is contaminated, badly contaminated by asbestos and lead, and 
there has been some cleanup done there. The Navy transferred 
the site to the Bainbridge Development Company in 2000. That is 
17 years ago, Mr. Chairman. And as part of that transfer the 
deed made it clear that the Navy was responsible for the 
cleanup. There was no dispute about that. Of course, the Navy 
would also be responsible under Federal law. So there is no 
question that there is contractual responsibility as well as 
legislative responsibility for the cleanup.
    The Bainbridge Development Corporation has made some 
efforts with developers to develop a mixed use property. It has 
been determined not suitable for that purpose because of the 
environmental contamination of asbestos and lead. And there has 
been negotiations going back and forth for these 17 years. Just 
last year there were some additional monies made available for 
soil investigation.
    Mr. Chairman, this is very frustrating, that after 17 years 
we are still evaluating what the problem is on a property that 
has transferred. In Cecil County, to put this into economic 
development would be critically important for their economy. 
And everyone is together; local government is fine with what is 
trying to be done. The holdup is the environmental restoration 
and Navy carrying out its responsibility. And I know they have 
budget problems. I get that. But 2000, the transfer of property 
and still not have it ready for its appropriate use?
    So our office is working very hard with the Department of 
Defense and with Cecil County to try to find a remedy here to 
move this along, but I just really wanted this Committee to be 
aware. It is not directly related to some of the subjects we 
are talking about, but I think it is related.
    And I see our witnesses shaking their heads affirmatively, 
and I would just welcome any thoughts you may have as to how we 
can move these procedures more efficiently so that this type of 
property can be put back in use, as the community wants it put 
back in use, which was formerly used by the Department of 
Defense.
    Mr. Breen, do you want to respond?
    Mr. Breen. Yes, sir. So you are exactly right. As a former 
Navy site, it is the Navy's responsibility to address it. EPA 
is able to offer some help, which we did at this site. There 
was a Brownfields Program which is not part of this hearing, 
but part of this Committee's jurisdiction. Pursuant to the 
Brownfields Program, in 2010, we performed an investigation of 
what are the issues at the site, and we found that there are 
both chemicals and heavy metals at the site as a result of that 
Brownfields review that did affect significant areas. So we 
were able to bring that technical assistance to bear. But as 
you said, it is not on the NPL, not on the National Priorities 
List, so not an EPA lead.
    Senator Cardin. And this is not an EPA area, I recognize 
that; it is more DOD.
    General, do you have any suggestions here?
    General Semonite. Sir, I don't have any specific knowledge 
of that site, but you have a great point, and that is that we 
cannot afford, as a nation, for every one of us to work in a 
stovepipe based on some certain account and the authorities in 
that account; we have to share this body of knowledge of when 
we learn something. And if we are learning something on a FUDS 
or a FUSRAP site, and we can somehow make sure we export that 
knowledge across, and we can all work together, somewhere we 
are going to find better value. So we can certainly take a look 
at it. I don't know where the Navy is at on this one, but I 
think that if there are some things that we can learn from all 
the other 5,400 sites we are doing, and be able to make sure 
somehow those things can be wrapped in, the nation is going to 
benefit.
    Senator Cardin. Thank you. I appreciate that response. We 
will follow up.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Cardin.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    And thank all of you. I am sorry I missed your testimony. 
Probably Senator Inhofe told you that the Commerce Committee is 
meeting at the same exact time, so we are sort of jumping 
around here.
    This is a bit off topic, but since I have General Semonite 
here, I am going to lodge the question, because I wanted to 
take the opportunity to talk about something important that we 
have been working with the Corps on, and that is the 
Appalachian Corridor H. This issue has to do with a Section 404 
permit of that project between Kerens and Parsons, West 
Virginia. The subcontractor for West Virginia DOT is working on 
this section, submitted the application October 13, 2016, and 
is frustrated it hasn't heard. This morning, however, we did 
get notice, following an inquiry from my office, that the 
Huntington Corps District informed my staff that they will be 
opening a 15-day public comment period on the permit 
modification. So I want to thank the Huntington Corps for that. 
It is very important if you are trying to drive from here to 
the beautiful ski regions in West Virginia over to Canaan 
Valley or Snowshoe, Corridor H is extremely important.
    So basically what I would like from you, General, really is 
that you would ensure to me that the public comment will in 
fact open when our local Corps told that it would, and pledge 
to kind of prioritize this project once that begins.
    General Semonite. Senator, I don't know exactly that 
permit. We certainly are committed to continue to stay on these 
timelines. I think the whole nation is continuing to look at 
permitting. We need to do this in a right manner based on our 
authorities and our statutes. But on the other hand, we have to 
be able to make sure we are expeditious in this. So I will go 
back and double check with the Huntington commander and find 
out where we are at on it. But unless there is some reason that 
we can't do that because of a regulatory issue or something, we 
want to be aggressive and continue to do permitting in an 
efficient manner, but also to be able to make sure that we are 
being responsive back to the applicant.
    Senator Capito. Thank you so much. I think, too, a yes is 
always what they want, but even a no is helpful, because you 
can either, A, restart or abandon the project, whichever 
direction. But being held in limbo is costly. So I am very 
pleased to hear you say that.
    Another question, again to you, General, is on the topic. 
On the list of one of the FUDS sites for West Virginia, almost 
70 percent of the Corps work is focused on a project that I 
have actually toured. It is called West Virginia Ordnance 
Worksite. It is in Mason County. It was an old storage facility 
for all kinds of different weapons and chemicals and 
ammunitions. It would be a good history site, I think, for our 
younger people to see what was going on in World War II and how 
the whole country was pulling together.
    But it mentions that one of the areas that is going on is 
long-term management. I was just wondering what does long-term 
management mean, and how does that unfold for a site such as 
this?
    General Semonite. So, Senator, if in fact there are some 
lower priority sites, and I hate to use that worse because they 
are all critical, but if there are some that we just can't get 
to it because of lack of funding, then we have to be able to 
make sure that we are addressing that from a life safety 
perspective, and also make sure that we are educating. 
Conversely, if there are sites that have actually been 
remediated to a given standard, it doesn't mean we just take 
our eye off the ball. So we have a 5-year renewal process where 
we go back out, we continue to look at that, we continue to do 
outreach back in there.
    So I think on this one I have to get back with you and find 
out exactly where we are at on it, but what we say on long-term 
management is to be able to make sure we continue to be able to 
make sure there is not any new issues that come up with a site, 
and we continue to have some degree of accountability back in 
to watch what happens on that site.
    Senator Capito. Well, one good thing about that particular 
site, too, is there are some contractors in and around that 
site where it has been cleaned, so that there is some economic 
activity in the local area; it is not just sitting there 
without any kind of a use. There are some folks that are 
repurposing that, because it is quite a vast site, and it has a 
primo spot because it is right on the Ohio River.
    General Semonite. Yes, Senator. And I can add it looks like 
we are continuing to do a treatability study on one of the 
specific sites that is called OU-4 to be able to make sure that 
we are looking at the technology to be able to remediation 
there. We are doing the long-term modeling I talked about, and 
monitoring, and we are continuing to work with EPA 3 to be able 
to look at restoring groundwater to drinking water standards in 
the manufacturing area. So our guys are working very closely on 
that, and we will continue to monitor it closely.
    Senator Capito. Right. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Harris. Good morning.
    Mr. Breen, according to the GAO, it can take up to 10 years 
to clean up a Superfund site. Do you agree with that, or does 
it take longer?
    Mr. Breen. So I actually am not sure which GAO study you 
are talking about, but there are sites which would take longer 
than 10 years.
    Senator Harris. And on average, is that how long it takes?
    Mr. Breen. I don't know.
    Senator Harris. OK. If you could follow up with me, that 
would be great.
    Mr. Breen. Sure.
    Senator Harris. And you probably know that California has 
the second largest number, second only to my friend, the 
Senator from New Jersey. I believe we have 98 active Superfund 
sites. I would like to ask you, and perhaps, General Semonite, 
you might have some information about some specific sites. In 
particular, starting with Oxnard, California, we have a site 
there where a company, Halaco, started dumping in 1965, and 
there was a 1997 cease and desist order from the Army Corps 
which was ignored for about three decades, so there was 
continuing pollution in the coastal wetlands. And then in 2007 
the EPA finally listed the site as a Superfund site.
    The cleanup is ongoing, but I think you would probably 
agree it should not take that long. So my question is, given 
this experience, what plans do the EPA and the Army Corps have 
to put in place a process so Superfund investigations can begin 
as soon as the Federal agency notices the contamination?
    Mr. Breen. Thank you, Senator. I can offer some, but I am 
going to suggest we also get you more detail for the record.
    Senator Harris. Right.
    Mr. Breen. You are right that we listed the site in 2007, 
and one of the first things we did was to undertake what we 
call removal actions. These are short-term actions to deal with 
the most pressing things. So we undertook removal actions in 
2007 and 2010. We demolished two buildings, and we stabilized 
the site, and we consolidated the waste so that it was less 
spread out.
    While the site planning is undergoing, we made a 
Brownfields job training grant of $200,000 to the city of 
Oxnard. This is a way in which, then, local residents can get 
the jobs that are being created in their communities. This is 
like a triple win, right, good for the EPA, we get people who 
know their communities the best; good for the residents; and of 
course, it is good for the site.
    In terms of what immediate next steps are planned, I would 
best be getting those to you after the hearing.
    Senator Harris. OK, that would be great. I would like an 
update on that.
    And then, General Semonite, as has been mentioned, we have 
many sites that have been active for over 30 years in 
California. The USEPA and Cal/EPA have worked together to 
investigate and clean up the Sulphur Bank Mercury Mine 
Superfund site in Clear Lake, California--it is actually in 
Lake County--since 1990. My understanding is the EPA estimates 
that 2 million cubic yards of mine waste still pollute Clear 
Lake, and the EPA has not yet taken significant remedial 
action, I am told, to control the contamination in the 
surrounding groundwater.
    So can you tell me, or Mr. Breen, what the progress is and 
the timeline for the cleanup of the Sulphur Bank Mercury Mine 
Superfund site?
    Mr. Breen. What limited I have on that, Senator, is that we 
are recognizing the prospect, the need to address the 
possibilities of rainfall, but that we also think steps are in 
place so that if that were to happen we are prepared for it. 
But I will get you more on that.
    Senator Harris. OK, I appreciate that.
    General, do you have any information about it?
    General Semonite. Senator, I think the main thing we are 
focused on, you have an awful lot of FUDS sites, so we started 
out with 721; we have actually closed 476. So of the 245 left, 
your outstanding balance, we probably need about $1.2 billion 
to clean those up. We have categorized 8 of those as what we 
call the scale of two. We re-rank everything through a risk 
management data base. So you have a couple that are our highest 
priorities. The ones that really I want to make sure to 
highlight is Elliott. That is one that has been significant. 
Several years ago, in 1983, we had two children that were 
killed out there, so we have gone back in and cleaned up 
Tierrasanta, it is called, and that one we think is very good 
and we are monitoring that.
    We have cleaned up Mission Trails, so I think that one is 
also going well. And the last site we are continuing to work 
through right now in investigation, so I will certainly have my 
staff get with your staff to be able to make sure you know. And 
on any one of these sites we can go in unbelievably deep detail 
to show you exactly where it is at, where it is at on the 
priority list. Our intent is to never hold anything back. We 
want to be able to be as transparent as possible so you know 
what we are doing, what we are not doing, and where we see that 
coming through when it comes to potential funding and 
requirements.
    Senator Harris. That is great. I appreciate that follow up. 
And then you mentioned $1.2 billion you need to deal with the 
remaining. Do you see that coming to you, or what is the 
challenge there?
    General Semonite. So clearly this is probably something of 
interest to all of them, but we are just like the other 
agencies; we have three different accounts, so the EPA 
obviously is the one that is working the Superfund, and I will 
let Mr. Breen address that. Clearly, the FUDS is a DOD 
requirement, so we continue to articulate our most important 
risk up through the DOD budget, and when we see the way the 
2018 budget comes out, we will certainly be able to advise you 
on where that is at. But at any given point we want to continue 
to be able to get visibility of where the highest risk is, and 
some of these like Elliott is ones that we want to continue to 
be able to make sure that DOD leadership knows the risk that is 
out there.
    And then, finally, the FUSRAP sites are back into really 
the civil works budget, another completely different pot of 
money, but that is where we have to continue to champion those 
as we go up through the civil works account and then see where 
the Committee and the Administration prioritizes FUSRAP with 
respect to the rest of the civil works account.
    Senator Harris. So, Mr. Chairman, I just have one more.
    Senator Barrasso. Yes, please.
    Senator Harris. So what I would also appreciate by way of 
follow up is, given the skinny budget that has been proposed, 
which sites in California you believe would not be addressed if 
that budget is actually the budget that we have to work with.
    General Semonite. And I will definitely give you that, but 
the real short answer is if we go from worst is number 1 down 
to number 8, right now we are really keying on the sites that 
are number 2. You have eight of those. Those are the ones that 
we continue to try to champion, and then we want to continue to 
work our way down that list.
    Senator Harris. Thank you.
    Thank you.
    Senator Barrasso. Thank you, Senator Harris.
    Mr. Frederick, the Army Corps has proposed no further 
action for the Atlas Missile Site 7. It is my understanding 
that Wyoming DEQ has not concurred, and it believes that 
further investigation is necessary in order to support that 
determination. Can you comment on that?
    Mr. Frederick. Thank you, Mr. Chairman. Yes. There are some 
questions that we have that deal on the technical side of 
things, technical interpretations that have been made by the 
Corps with respect to what is going on at that particular 
missile site. There is a little bit of an unusual geologic 
condition that exists at that site in particular. There is 
actually what is referred to as piping in the formation that 
contains the groundwater, and this piping is more than likely a 
result of animal burrowing, wormholes, things like that. It is 
a fairly unique situation. But in that type of condition 
groundwater really behaves a little bit differently than what 
you would see it behave in when you are dealing with just a 
typical sand and gravel aquifer with forced flow. So the piping 
essentially directs where the groundwater is going to go, and 
thus any contamination with it as well.
    So what we have seen is, in this particular case, where you 
would think you would not find any TCE, that is up-gradient 
from the missile site, we are actually finding TCE, and we have 
asked the Corps to try and help us understand why we would be 
seeing it up there. And if we are seeing it there, what does 
that mean and where else should we be looking?
    Senator Barrasso. Thank you.
    So, to that, General Semonite, will the Corps do further 
investigation, as requested by the State?
    General Semonite. So, sir, two points. First of all, in 
your opening statement I think you mentioned that there was a 
perception of an unhealthy attitude with respect to Atlas, and 
that for some reason maybe the Corps was trying to do a quick 
fix. I have 34,000 employees, and I would put my engineers 
against some of the best in the world, and not just because of 
technical competence, but because of compassion to do the right 
thing for this nation. So if I ever find somebody who I think 
is unhealthy, please notify me personally. The only reason that 
we should not be able to do something is just lack of resources 
or for some reason we are technically challenged, but it is not 
because of an attitude. And I will certainly rectify that if 
that is out there.
    Now, specifically on No. 7, and I have all 7 here we can 
talk about, 3 is a great example. We have some challenges at 
Site No. 3. We work side by side, and Mr. Frederick has been 
there for several years, much smarter than I on a lot of these 
things. But 3 we found a compromise where we all could come 
together. We moved on, and I think we have a successful 
solution with 3 after $12 million. We are dealing with the same 
thing on 4, and we can talk about that.
    Seven is a good example where we had eight rounds of 
sampling performed from 2011 to 2013, and the wells were below 
that minimum level for the contaminants concerned. Decision 
document to close the site was signed in September 2014; EPA 
Region 8 supported that closeout decision. But again, we want 
to go back in, and we don't want to just close the door. If 
there is something we need to do to work with Mr. Frederick and 
team, we certainly want to do that to try to find out how to 
get the resolution.
    I think the bottom line is these are all not simple cookie 
cutter solutions, so we have to take the best science out there 
with the best authorities, see what Mr. Frederick's concerns 
are and try to find a consensus.
    Senator Barrasso. Mr. Frederick, do you believe that the 
Corps is doing what it is doing to help with some specific 
sites? Has that been helpful? And where should we proceed from 
here?
    Mr. Frederick. Mr. Chairman, certainly the issues with 
respect to some of the sites that we have had in the past I 
think the Corps has made some good efforts to try and address 
our concerns. The Lieutenant General mentioned Site 3, for 
instance, as an example. Nevertheless, we still have a long way 
to go. We have a lot of work to be done in front of us. It is 
going to be challenging, and I am sure we will still see 
situations where we don't necessarily agree on the approaches 
for delineating sites, characterizing sites, and so forth, but 
we will be working hard to make the best of those situations.
    Senator Barrasso. OK.
    So, General, you would agree that Wyoming should be treated 
as a peer in this process, and its expertise should be given 
considerable weight as you make these decisions?
    General Semonite. Yes, sir. And I am more than willing to 
offer that at some point, if we can't let the technical staff 
work this out, then leaders like Mr. Frederick and I can 
certainly come see you with our division commanders, I have one 
of the best districts working this particular site, and 
certainly lay out where we see it is. And again, we lean 
heavily on EPA's opinion in all this. It really is the entire 
community coming together to figure out what is the right thing 
to do for the nation.
    Senator Barrasso. Mr. Frederick, so what would happen if 
the Corps doesn't do the cleanup for missile sites, as you 
suggested that they make sure get done?
    Mr. Frederick. Mr. Chairman, what will happen is that the 
TCE is going to continue to leach into groundwater. As it 
continues to leach into groundwater, plumes are going to 
continue to expand. Ultimately, what we are looking at is a far 
more expensive cleanup when we get around to it at some point 
in time because the contamination has actually gotten much 
worse in size.
    Senator Barrasso. So, General, then I can count on you to 
make sure that this does not happen?
    General Semonite. Sir, we will take the available science 
and make sure we work through an acceptable solution. A good 
example is 3. We went down through with a lot of different, 
very innovative techniques to be able to make sure we could 
contain that plume. We do not want this to leach into the 
groundwater. I think we have the same end state here; we just 
have to make sure that the science all puts us in the same 
direction.
    Senator Barrasso. Mr. Frederick, in your written testimony 
you included some recommendations that you said could help 
improve things with regard to the cleanup of cold war legacy 
sites such as the Atlas Missile sites. Could you take a few 
moments to just elaborate on those?
    Mr. Frederick. Thank you, Mr. Chairman. Certainly, 
cooperation between State and Federal agencies plays a very 
important part in determining how quickly and effectively sites 
are remediated. We have found that effective components of any 
missile site cleanup strategy emphasized real results for the 
money spent. They incorporate State requirements early on, they 
adequately fund State involvement, and clearly define Federal 
and State roles in the cleanup and include opportunities for 
public comment, as well.
    In addition, consistent application of both State and 
Federal regulations and guidance regarding investigation and 
cleanup is highly important. We don't like to see situations 
where we are seeing guidance applied differently in one site or 
one State as opposed to another. There needs to be consistency 
in the application so we are all on the same page.
    Adequate funding can significantly improve the remediation 
process in terms of both time and overall cost. Lack of Federal 
funding in particular may lead to technically inadequate and 
incomplete site characterizations. Source areas may not be 
adequately investigated and defined, and ineffective costly 
remedies may be determined from incomplete information.
    States play an important role in this process and often 
have a great deal of institutional knowledge and familiarity 
with the sites and understand State requirements that apply to 
the cleanup process. We would encourage those to take advantage 
of those opportunities that States can provide to help the 
process along.
    Finally, the Association of State and Territorial Solid 
Waste Management Officials, or ASTSWMO, of which the Wyoming 
Department of Environmental Quality is a member, has recently 
published a position paper, that I have attached to my written 
testimony, on performance based contracting at Federal 
facilities. It also includes a checklist that is intended to 
help improve the efficiency and the ultimate performance based 
contracting process. And we would certainly encourage everyone, 
especially the Corps of Engineers, to take a look at that 
position paper and give it serious consideration, and involving 
States early on in performance based contracting. We believe 
that would also be one way, at least, to make the whole process 
more cost effective and efficient.
    Senator Barrasso. Thank you very much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Massachusetts has 47 former military sites that need some 
form of investigation and potential remediation; potential cost 
of $126 million. We have at least 10 Superfund sites that will 
lose access to critical cleanup services. And we have a Trump 
administration which is proposing a $1 billion cut in the Corps 
of Engineers' budget and slashing the entire EPA budget by 
nearly a third. So that is just so irresponsible, because these 
individual communities, they are left with a legacy that they 
didn't create. Irresponsible kind of management ultimately 
created these problems, both in Superfund and in the problems 
that the Army Corps looks at, and they don't have enough money 
to deal with it.
    We ran into the same thing in the Reagan administration. 
What they did was they really harbored an animus toward the 
Superfund program, and they just began defunding. They named 
Anne Gorsuch as the head of the EPA, Rita Lavelle as the head 
of the Superfund program, and one of the top five sites in 
America was the Woburn site that I represented, which 
ultimately became the subject of a movie and a book called A 
Civil Action. And in 1986 I had to release a report called 
Deadly Delay; that the EPA was doing deliberately in Woburn, 
kind of slowing it down; notwithstanding the number of children 
who had contracted leukemia, the number of families that had 
been totally irreparably harmed. And all we are seeing here is 
just a repetition, this whole idea that you can attack an 
agency in general without ultimately impacting the lives of 
ordinary people.
    So, Ms. Smith, let me begin with you. What do you think the 
impact is going to be of ultimately extending the deadlines 
that it will take in order to clean up these sites and what the 
impact is on the public health and safety of people who live in 
those neighborhoods?
    Ms. Smith. Thank you, Senator, for the question. As I 
indicated before, in Washington State in particular, and at the 
Hanford site in particular, delays in cleanup progress mean 
just unacceptable lengths of cleanup. Hanford is currently 
scheduled to be cleaned up by 2070, and we have seen some 
budget indicators that that could go beyond and well into the 
year 3000, which seems unfathomable. And it does place 
unacceptable risks on both the local community and the local 
resources.
    Senator Markey. It absolutely does not seem unfathomable to 
me. I issued a report in 1987 on the Hanford Reservation and on 
the lack of progress that was being made. That was denial. That 
was deadly delay right there. They knew what was going on; they 
knew what they had left behind. The military didn't want to 
deal with it; they didn't want it to come out of their budget. 
They need more bombs over here that Hanford had been producing, 
but they don't want to then deal with the consequences left 
behind for the public.
    So how devastating will this be to you, General, in terms 
of your ability to be able to deal with all of these sites that 
are under the Army Corps jurisdiction?
    General Semonite. So, sir, we do deal with three different 
types of accounts. Clearly, there is Superfund, FUSRAP, and 
FUDS, so all of those are different funding streams.
    Senator Markey. What does FUDS stand for?
    General Semonite. So, sir, FUDS is Formerly Used Defense 
Sites.
    Senator Markey. Formerly used, now abused, military sites, 
meaning the military just walking away from it. Formerly. That 
is nice, FUDS. And what is the middle one?
    General Semonite. FUSRAP, sir.
    Senator Markey. What does that stand for?
    General Semonite. I have it here. It is a long acronym.
    Senator Markey. But the name of what you describe will tell 
us what it is.
    General Semonite. Formerly Used Sites Remedial Action 
Program.
    Senator Markey. There it is. Yes. But the remedial action 
program is now going to be just push-back, push-back, push-
back, because you need money. You know, a vision without 
funding is a hallucination. So you can't pretend that without 
money, without the personnel, you are going to be able to solve 
this problem. So you will have to triage this, then; right, 
General?
    General Semonite. So, sir, we do a risk informed decision 
process on every one of these sites. We take a look at the 
complexity of the site and the danger of the site.
    Senator Markey. No, I appreciate that. So you are going to 
have to leave behind sites that you have determined to be 
dangerous, but not as dangerous as the ones that need more help 
immediately.
    General Semonite. They will not be able to get attention as 
fast as others, yes.
    Senator Markey. Right. Exactly. So you just say to those 
people, sorry, not enough room on the lifeboat, and you are 
just going to have to stay onboard here.
    Yes, ma'am.
    Ms. Lukin. If I may, I am so glad you asked this question, 
Senator Markey, because Ranking Member Carper asked a question 
earlier about funding and issues around sites, and I misheard 
him and misspoke. So I want to correct that answer, because in 
Alaska we would take cuts to funding for Army Corps of 
Engineers, for DOD FUDS programs, for EPA. It would have an 
extremely detrimental impact on the cleanup of sites across the 
State of Alaska. We absolutely need increased efficiencies and 
better coordinating between Federal agencies.
    But if we saw an even further decline in cleanup of our 
contaminated sites, our native people are very concerned about 
food security, about things leaching into our rivers, into our 
lakes where our fish are, into our land where we hunt and fish. 
We have concerns over significantly high rates of cancer among 
our native people. Some very strongly believe that this is 
linked to the contamination that we are experiencing throughout 
our native communities. And we are also concerned about 
drinkable water, because we do have locations near our Alaska 
native villages where you can't drink the water.
    So thank you very much for the opportunity to say that.
    Senator Markey. No, thank you. And let me just say this. I 
had a mother, Ann Anderson her name was, come into my office in 
Congress 1979, and she brought her little boy with her, Jimmy. 
And she just sat in my office and told me that Jimmy had 
leukemia and that she had actually gone door to door and found 
other mothers who also had little girls and boys with leukemia 
in one area that was only like a tenth of the size of the whole 
city, but it was where all the contaminated wells were, where 
all this residue had just been left behind, the arsenic, the 
mercury, whatever, in the water and in the land. And she went 
door to door and she found all these kids, and every mother and 
father felt that they had just been unlucky. Oh, my God, and 
then they figured out that it wasn't. So that is really, along 
with Love Canal, where the Superfund program began, with Woburn 
and with Love Canal.
    And it was a tough fight. The city was in denial because it 
would ruin property values if they made all this public, you 
know, and you have all these issues. And the EPA was not that 
enthusiastic about coming in, especially after Reagan took over 
and named Ann Gorsuch and Rita Lavelle. But eventually, it took 
a long time, we cleaned up the site, and on that site now is a 
huge industrial site and a huge transportation center, which we 
then named the Jimmy Anderson Transportation Center, which now 
creates thousands and thousands of jobs.
    So it does work. When you clean it up, you can reuse it for 
community purposes. But as long as you are in denial, more 
children die across the country, more families are exposed to 
this, more property is never used because the Army walked away 
from that, because the defense industry walked away from it, 
because Monsanto and other companies walked away from it and 
left the community to figure it out. They can't do it alone; 
they need the Federal Government to help them. There is just no 
capacity in an individual community. And that just transformed 
the whole way this community views itself, and it now can see, 
in retrospect, that it was wrong to kind of get mad at the 
mother and saying, oh my goodness, you can't talk about this; 
it is going to ruin property values.
    So I just hope we don't have to repeat history again, 
because there are too many people depending upon us, because we 
know that the Army needs the resources. The private sector 
companies have walked away, and unless we have a comprehensive 
way of looking at it, families are going to suffer.
    So I thank you, Mr. Chairman, very much.
    Senator Barrasso. Thank you, Senator Markey.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Senator Markey, thank you for bringing up the budget. I 
think this is going to be an area that we really do need to 
work through. So my line of questioning will be a little bit 
different, but it does focus very much on budget and funding 
issues.
    General, thank you for appearing for the second time in a 
month in front of this Committee. I am greatly appreciative. 
And I am sure you know where my questioning will go this 
morning. It is really good to have you here. We have had many 
discussions over the course of the past several months.
    But I wanted to take the time today to just reemphasize the 
flood mitigation projects that we have hanging out there. One 
of those is in Iowa, in Cedar Rapids. And thank you again for 
participating in those discussions with me.
    On Monday I met with OMB Director Mulvaney, alongside 
Senator Grassley and Congressman Blum, to talk about the Cedar 
Rapids flood mitigation project and how important that is for 
our State, and I know that you are aware of it. I appreciate 
your work on this with me. And it is my understanding, when we 
visited with Director Mulvaney, it is my understanding that the 
Corps, as of Monday, had not yet submitted their budget to the 
OMB for fiscal year 2018. Is that correct?
    General Semonite. So, ma'am, we got guidance about 3 weeks 
ago. We have been cranking hard all the way through that, and 
then we provided our update to the Assistant Secretary to the 
Army on Monday. That budget is being worked right now at the 
senior levels of the Army and then will go to OMB on this 
Friday. That is the current timeline.
    Senator Ernst. Excellent. Thanks, General.
    General Semonite. So the short answer is we have submitted 
it to our higher level, but it has not been submitted to the 
OMB.
    Senator Ernst. To the OMB. OK, thank you very much for 
that.
    The Cedar Rapids project was authorized in 2014 and WRDA 
2016 directed the Corps to prioritize funding and expedite 
completion of the Cedar Rapids project. I also received a 
handwritten note from you on January 30th that said you and the 
Corps agree in the risk to Iowa citizens and that you will 
pursue all possible options to support this critical project. 
And I do ask that you carefully consider all of these 
provisions when making your determinations going forward in the 
budget. Will you do that?
    General Semonite. Yes, ma'am. Unfortunately, though, as you 
are probably aware and some of the people have already 
highlighted this year, there could be potential cuts to the 
civil works account based on what was in the President's 
initial proposal. So we will have to see how that plays out and 
our ability to be able to then fund all of those critical 
priorities.
    Senator Ernst. Thank you. And will you commit to work to 
solve this particular issue expeditiously and to work with 
myself and the OMB to modify the metrics that the Corps 
utilizes so we can stop discounting the rural areas such as 
Iowa and other Midwestern areas that have lower property 
values?
    General Semonite. Senator, you and I have talked about that 
in the past, and you have some very good points on property 
values and economic values. I think we want to continue to try 
to make sure that the processes that are used to be able to 
support the priorities of the Corps budget are the same things 
that come back out of the budget on the other end. I can't 
guarantee you, though, that what I put in in the budget is 
necessarily what is going to ultimately be approved.
    Senator Ernst. Well, we will continue working on this 
issue. Again, it is very important not just for the Cedar 
Rapids flood mitigation project, but for so many of those other 
projects that are authorized but continue to hang out there. 
So, General, I thank you for your work.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator Ernst. I 
appreciate it.
    I do ask unanimous consent that the testimony from the 
FUSRAP Coalition be placed in the record for this hearing. 
Hearing no objection, that will so be done.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I know that Senator Carper is meeting 
with some constituents. I know he wanted to make one or two 
little final wrap up, so we are waiting for him.
    I will just, if I could, run down the panel and start with 
you, General. Any summary thoughts that you might have to share 
briefly with us?
    General Semonite. Senator, I want to just thank you and the 
Committee for taking this opportunity to hear some of the 
challenges that we all have. Clearly, we are all very committed 
to try to clean up these areas. I think, though, that we are 
also are very realistic that understanding the size of this 
problem is immense, and I think we have to be transparent to 
stakeholders that some of these projects are just not going to 
be funded as fast as other ones. So this is where we have to 
figure out how can we continue to keep the momentum there, but 
in a deliberate manner that is putting priorities that are 
really life safety and risk to the environment. We have to be 
able to make sure that we are putting the best value out to 
where it needs to be.
    Senator Barrasso. Mr. Breen, any thoughts in summary?
    Mr. Breen. Thank you, Mr. Chairman. I think this is an area 
where the Committee's jurisdiction can do both environmental 
and economic good at the same time. Thank you for holding the 
hearing.
    Senator Barrasso. Mr. Frederick, any final thoughts?
    Mr. Frederick. Mr. Chairman, thank you. Yes, I am sure you 
have heard as well as I have that residents in the Cheyenne 
area affected by missile site contamination are concerned about 
it, and they are concerned about when it is going to be cleaned 
up. And for too many sites we just haven't heard when that is 
going to happen. I am hopeful that today's testimony will help 
bring some attention to the funding projects that the Corps 
faces, and I appreciate the opportunity to talk to you today.
    Senator Barrasso. Thanks for being here.
    Ms. Lukin.
    Ms. Lukin. Quyanaa. Thank you so much for inviting me to 
come today. We urge Federal agencies to work together. We look 
to leadership and guidance from Congress, and we would be happy 
to work with you to continue to resolve this important issue 
for Alaska native villages.
    Senator Barrasso. Thank you for being with us.
    Ms. Smith.
    Ms. Smith. Thank you, Mr. Chairman. These sites are really 
the moral and legal obligation of the Federal Government, and 
history in Washington State has shown that funding is really 
the primary thing that drives cleanup faster. So we appreciate 
you holding this hearing, and we will do all we can in 
Washington State to help support funding.
    Senator Barrasso. Thank you.
    Senator Carper, some final thoughts.
    Senator Carper. Quyanaa. How's that? All right. We learn 
something every day in this job.
    Thanks so much for what you do with your lives. Thanks so 
much for being with us here today.
    One of the things I focus on not only in this Committee, 
but in the other work that the Chairman and I and others do 
across the board is I focus on root causes. I focus on root 
causes of problems. And a lot of times we spend our resources 
and we focus on symptoms of problems, addressing the symptom, 
like cleanup. We have these cleanups, we clean them up. We 
spend a lot of money; it takes a long time.
    And I just want to make sure what are we doing to make sure 
that we are not creating, unwittingly, future cleanup sites. 
Are we going to have to do this more and spend more money and 
more time and disadvantage more people, harm more people? 
Anything that we are doing to make sure this kind of thing 
doesn't happen again and again and again?
    General.
    General Semonite. Senator, from a construction perspective, 
when we are out working on military installations and building 
new ranges, or trying to figure out what are impact areas, we 
have come generations ahead of where we were at 30 or 40 years 
ago. I think the Americans that were here back in 1930 and 1940 
were just as committed to this country; they just didn't have 
the ramifications to understand the second and third order 
effects from that. So you have a very good point. We have to 
make sure that 30 or 40 years from now, even the fact that we 
might not know what is going on, we have to think through the 
depth of some of these actions to make sure that our 
grandchildren don't have the same burden that, unfortunately, 
we have inherited here.
    So I can get into more technical, but some of the things 
that we are doing environmentally and to be able to make sure 
we are thinking through what about rounds that are left in the 
ground. What are the ramifications of that? How do you get a 
bullet now that can basically be biodegradable and you don't 
have any ramifications? Some of those kind of things is what we 
are doing.
    Senator Carper. All right, thanks.
    Anybody have a differing view? Anybody want to add to what 
the General has said? Do you all agree?
    Mr. Breen. I certainly agree, Senator. It is the case that 
Superfund is one of the nation's safety nets. It is what is 
there to stand in when other things have not worked. In some 
cases that is things that have been put into place decades ago. 
I think the Congress took an important step with the amendments 
to the Toxic Substances Control Act, the new TSCA, in making 
improvements in the way we deal with chemicals at the outset. 
But that doesn't mean Superfund doesn't need to be there for 
many years to come to deal with problems that are already 
entrained.
    Senator Carper. Anyone else want to say anything? OK.
    You mentioned TSCA. That is something that Senator Inhofe 
and myself, others on this Committee worked literally for 
years, David Vitter worked for years, Tom Udall, Frank 
Lautenberg, and I am very proud of that. Very proud of the work 
that was done. But in the last Congress this Committee played a 
lead role in reauthorizing TSCA, I think maybe rewriting it in 
a way that will actually work and be effective. It turns out 
that the very first chemical safety rules proposed last fall 
under the new rule were rules to ban some uses of TCE. I know 
we talked a little about TCE today, but let me just follow 
through on this. But the rules have not yet been finalized.
    Ms. Smith, Mr. Frederick, Ms. Lukin, do any of you disagree 
that EPA should act to finalize these rules just as quickly as 
possible in order to prevent future exposure to TCE like the 
exposures that people near the Wyoming Atlas Missile site are 
at risk of? Go ahead and speak.
    Ms. Smith. We do not, I do not disagree.
    Senator Carper. All right.
    Ms. Smith. Thank you, Senator.
    Senator Carper. Thank you.
    Mr. Frederick. Mr. Chairman, Senator, I am not familiar 
with the rule.
    Senator Carper. OK.
    Ms. Lukin.
    Ms. Lukin. I am also not familiar with the rule.
    Senator Carper. All right.
    If you were familiar with the rule, what would----
    [Laughter.]
    Ms. Lukin. I would suggest that I would not disagree with 
the rule, but I would have to read it to give you a for sure 
answer on that. Thank you, sir.
    Senator Carper. Last word. Ms. Lukin, I may have 
misunderstood what you said in your earlier testimony, although 
I thought you were all brilliant, just exceptional. But I think 
I understood you to say that there was a land swap that 
occurred involving native Americans and that in the land swap 
that occurred I think between maybe the Federal Government and 
the native Americans, the native Americans ended up with land 
that had been contaminated with toxic materials or whatever, 
and now that needs to be cleaned up. And I don't think you said 
that the native Americans were left holding the bag in the 
cleanup, but it sounds like that might be what has happened. Is 
that what you said?
    Ms. Lukin. In a sense, sir. There is a section within 
CERCLA which basically says that the current landowner could be 
liable for the cleanup of preexisting contamination. So under 
the situation with Alaska Native Corporations, although this 
contamination occurred during the cold war and World War II, 
these are events that happened prior to conveyance of the land 
to Alaska Native Corporations. Under CERCLA, we are legally 
liable to clean up that land, which we feel is extremely unjust 
given that we received the land under our aboriginal land claim 
settlement with the Federal Government.
    The EPA does have a longstanding policy that says that it 
won't pursue legal action against parties under this particular 
provision of CERCLA, but it doesn't provide us any legal rights 
under the law, and EPA reserved the right to depart from it on 
a case by case basis. So essentially this has a situation where 
Alaska Native Corporations in some cases are unwilling to bring 
forward and notify agencies of prior contamination on their 
lands simply because they don't want to be held legally liable 
for the cleanup. So we are asking Congress to consider 
providing Alaska Native Corporations protection under the law 
from this particular section in CERCLA.
    And sir, you stepped out a moment ago, and I misspoke and 
misanswered your earlier question about budget funding for 
agencies.
    Senator Carper. Oh, that's too bad.
    Ms. Lukin. No, sir, so I wanted you to know I absolutely do 
not support cut funding to Federal agencies for cleanup of 
these lands. We have already been delayed over 45 years in the 
cleanup of these sites across Alaska. We need more funding, not 
less, to make this right. Thank you.
    Senator Carper. Would you say that just one more time?
    [Laughter.]
    Senator Carper. It's on the record twice. That's good. 
Thank you.
    Just in closing, Mr. Chairman, what I opened up with, 
Golden Rule, treat other people the way we want to be treated, 
who is my neighbor. And you are neighbors, and the folks that 
you are trying to help, they are our neighbors as well. And we 
have an obligation, I think, a moral obligation to do our part. 
And also, while we clean up these messes, toxic messes that 
have been created, that we work really hard to make sure we are 
not unknowingly creating more of them.
    This was a wonderful hearing and appreciate very much all 
of you being here and enlightening us today. Thank you.
    Senator Barrasso. Well, thank you, Senator Carper.
    I just want to thank all the witnesses again for your 
testimony, for your thoughtfulness.
    If there are no more questions, members may also submit 
follow up written questions for the record. The hearing record 
will, therefore, stay open for 2 weeks.
    I want to thank all the witnesses for their time, 
testimony, and congratulate our friend who is retiring after 32 
years of service to our nation; not just to the agency, but to 
our nation. Thank you.
    With that, the hearing is adjourned.
    [Whereupon, at 12:02 p.m. the Committee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
